No. 20-979

 

IN THE

Supreme Court of the United States

PANKAJKUMAR 8S. PATEL AND JYOTSNABEN P. PATEL,

Petitioners,
v.

MERRICK GARLAND, ATTORNEY GENERAL,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit

BRIEF OF LAW PROFESSORS AS AMICI
CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,378 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 7, 2021.

 

Wilson-Epes Printing Co., Inc.
